OIG Investigative Reports, Twin Buttes Officials Sentenced for Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Drew H. Wrigley
District of North Dakota
FOR IMMEDIATE RELEASE:
November 15, 2007
http://www.usdoj.gov/usao/nd/
CONTACT:     BETH LANG
PHONE:   (701) 530-2420
FAX:   ;  (701) 530- 2421
Twin Buttes Officials Sentenced for Embezzlement
BISMARCK - United States Attorney Drew H. Wrigley announced that on November 15, 2007, Twin Buttes School Board Chairman Melissa Starr and Darwin Lone Bear, Board Member, of Halliday, North Dakota, were sentenced before United States District Court Chief Judge Daniel L. Hoviand on felony charges of embezzlement and theft from an Indian tribal organization. Starr, 38, pleaded guilty on April 12, 2007. Lone Bear, 43, pleaded guilty on April 13, 2007.
Judge Hovland sentenced Starr to serve a year-and-a-half in federal prison, followed by three years of supervised release and 300 hours of community service. The Judge also ordered Starr to pay restitution of $309,246.19 to the Twin Buttes Elementary School and a $100 special assessment to the Crime Victim's Fund.
Judge Hovland sentenced Lone Bear to serve six months in federal prison, followed by three years of supervised release and 200 hours of community service. Lone Bear was ordered to pay restitution of $23,498.84 to the Twin Buttes Elementary School and a $100 special assessment to the Crime Victim's Fund. Federal prison sentences do not allow the possibility of parole.
The illegal activities occurred between August 2001 through October 2006 when Starr and co-defendants Lillian Holen, Elaine Incognito, Hank Starr, Darwin Lone Bear, Paul Fredericks, and Tammy Grady fraudulently obtained money from the Twin Buttes Elementary School by theft, misapplication, and embezzlement of school and federal program funds. Starr and her co-defendants attempted to disguise these funds by claiming they were bonuses, loans, payroll advances, compensation to others, and travel expenses.
Earlier this month, on November 8, Judge Hovland sentenced Tammy Grady, 40, for her role in these same fraudulent activities. Grady was ordered to serve seven months in federal prison, seven months of home confinement with electronic monitoring, and three years of supervised release. Grady was also ordered to pay restitution of $23,498.84 and a $100 special assessment to the Crime Victim's Fund.
United States Attorney Drew Wrigley issued the following statement, but withheld further comment until the remaining defendants in this case are sentenced later this month: "Twin Buttes School Board Chairman Melissa Starr and Board Members Darwin Lone Bear and Tammy Grady violated the public trust. What's worse, the defendants enriched and pampered themselves at the expense of the students who are just trying to get an education at Twin Buttes School. Education dollars are precious and every dollar stolen represents a dream dashed for tribal students and their families. These crimes are troubling examples of official corruption, and I pledge that federal law enforcement efforts will continue to aggressively pursue such cases as priority matters."
Four additional defendants remain to be sentenced: Elaine Incognito on November 20, 2007, at 9:00 a.m.; Paul Fredericks on November 20, 2007, at 10:00 a.m.; Hank Starr on November 20, 2007, at 11:00 a.m.; and Lillian Holen on November 27, 2007, at 11:00 a.m., in United States District Court, Bismarck.
The case was investigated by the Department of Interior Office of Inspector General.
Assistant United States Attorney Clare Hochhalter prosecuted the case.
Printable view
Share this page
Last Modified: 11/27/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov